No. 20'869

lln 6,llt
Supreme @surt of tbe @nite!

$tutts
Davm E. HpNny,

Petitioner
v.

Cesrlp Mnucal CpNrpn,
Respondent
On Petition For Writ Of Certiorarr
To The United States Court Of Appeals
For The Ninth Circuit

CERTIFICATE OF SERVICE

As required by Supreme Court RuIe 29.5, I
certify that all parties required to be served
will be served with three copies of the Reply
Brief for Petitioner on or before June L6, 202I
by personal delivery or by mail, postage
prepaid, to the following persons, in
accordance with Supreme Court Rule 29.3.

BRIAN W. TILKER, ESQ.
bwt@torkildson.com
J. GEORGE HETHERINGTON, ESQ.
jgh@torkildson.com
Torkildson Katz Hetherington Harris &
Knorek
700 Bishop Street, Suite 1500
Honolulu, Hawaii 96813
Telephone:( gos) 523-6000
Attorneys for Respondent
CASTLE MEDICAL CENTER
Executed on June L4, 2020

e/
DENNIS W. KING
JOHN WINNICKI
Attorneys for Petitioner

2

